      DEPARTMENT OF HEALTH AND HUMAN SERVICES                                       Office of Inspector General

                                                                                    Office of Audit Services
                                                                                    1100 Commerce, Room 632
                                                                                    Dallas, Texas 75242


                                                                                      June 4, 2009
Report Number: A-06-07-00092

Albert Hawkins, Executive Commissioner
Texas Health and Human Services Commission
P.O. Box 13247
Austin, Texas 78711

Dear Mr. Hawkins:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Medicaid Outpatient Drug Expenditures in Texas
for the Period October 1, 2003, Through September 30, 2005.” We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Ms. Sylvie Witten, Audit Manager, at (512) 339-3071 or through e-mail at
Sylvie.witten@oig.hhs.gov. Please refer to report number A-06-07-00092 in all correspondence.

                                              Sincerely,




                                              Gordon L. Sato
                                              Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Albert Hawkins


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 





      REVIEW OF MEDICAID 

       OUTPATIENT DRUG 

       EXPENDITURES IN
 

     TEXAS FOR THE PERIOD 

   OCTOBER 1, 2003, THROUGH 

      SEPTEMBER 30, 2005
 





                     Daniel R. Levinson
 

                      Inspector General 


                         June 2009 

                       A-06-07-00092
 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices 


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                        EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Texas, the Texas Health and Human Services
Commission (the State agency) administers Medicaid.

In addition to providing mandatory Medicaid services, States may offer certain optional services,
such as outpatient prescription drugs, to eligible Medicaid beneficiaries. Most States, including
Texas, administer their Medicaid prescription drug programs in accordance with the Medicaid
drug rebate program. The program generally pays for covered outpatient drugs if the drug
manufacturers have rebate agreements with CMS and pay rebates to the States. Under the drug
rebate program, CMS provides the States with a quarterly Medicaid drug tape, which lists all
covered outpatient drugs, indicates a drug’s termination date, if applicable, and specifies whether
the Food and Drug Administration has determined the drug to be less than effective. CMS
guidance instructs the States to use the tape to verify coverage of the drugs for which they claim
reimbursement.

In Texas, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program” (CMS-64). CMS reimburses
the State agency based on the Federal medical assistance percentage for the majority of claimed
Medicaid expenditures, including outpatient drug expenditures.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures complied with Federal requirements.

SUMMARY OF FINDINGS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for fiscal
years 2004 and 2005 did not fully comply with Federal requirements. Of the $4.6 billion ($2.9
billion Federal share) claimed, $324,908 (Federal share) represented expenditures for drug
products that were not eligible for Medicaid coverage because they were (1) terminated drugs for
which the termination dates were listed on the CMS quarterly drug tape before the drugs were
dispensed, (2) drugs listed on the CMS quarterly drug tape as less than effective, or (3) inadequately
supported with documentation.

An additional $52,986 (Federal share) represented expenditures for drug products that were not
listed on the quarterly drug tapes. Because the State agency did not provide support to indicate
whether or not it had verified if the drugs missing from the tapes were eligible for Medicaid


                                                i
coverage, these drug expenditures may not have been allowable for Medicaid reimbursement.
For the remainder of the $4.6 billion ($2.9 billion Federal share) claimed, we identified no other
errors with respect to whether the drugs were (a) terminated, (b) less than effective, (c) supported
with adequate documentation, or (d) included on the CMS quarterly drug tapes.

The State agency had inadequate controls to ensure that all of its outpatient drug expenditures
complied with Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund $324,908 to the Federal Government for drug expenditures that were not eligible
      for Medicaid coverage;

   •	 work with CMS to resolve $52,986 in payments for drugs that were not listed on the
      quarterly drug tapes and that may not have been eligible for Medicaid coverage; and

   •	 strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
      with Federal requirements, specifically:

           o	 	 claim expenditures only for drugs that are dispensed before the termination dates
                listed on the quarterly drug tapes,

           o	 	 do not claim expenditures for drugs that are listed as less than effective on the
                quarterly drug tapes,

           o	 	 maintain documentation that supports the expenditures reported on the CMS-64,
                and

           o	 	 verify whether drugs not listed on the quarterly drug tapes are covered under the
                Medicaid program and notify CMS when drugs are missing from the tapes.

STATE AGENCY COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency addressed our first two
recommendations by agreeing to work with CMS to ensure that Federal reimbursement is
appropriate and to refund the Federal share of any drug expenditures that were not eligible for
Medicaid coverage. Regarding the third recommendation, the State agency maintains that it has
management controls in place that provide strong assurance that drugs are eligible for Medicaid
reimbursement. The State agency’s comments are included in their entirety as the Appendix.

We continue to recommend that the State agency strengthen its internal controls. The State
agency claimed $324,908 for drugs that were not eligible for Medicaid coverage and $52,986 for
drugs that may not have been eligible for Medicaid coverage.


                                                   ii
                                                  TABLE OF CONTENTS
 


                                                                                                                                   Page
 


INTRODUCTION......................................................................................................................1
 


          BACKGROUND .............................................................................................................1 

              Medicaid Program................................................................................................1              

              Medicaid Outpatient Prescription Drug Program ................................................1 

              Reimbursement of Medicaid Expenditures..........................................................2
 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2 

               Objective ..............................................................................................................2 

               Scope....................................................................................................................2    

               Methodology ........................................................................................................2         


FINDINGS AND RECOMMENDATIONS ............................................................................3 


          CLAIMS FOR TERMINATED DRUGS ........................................................................4 


          CLAIMS FOR LESS-THAN-EFFECTIVE DRUGS......................................................4 


          CLAIMS FOR INADEQUATELY SUPPORTED DRUG EXPENDITURES ..............5 


          CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES..................5 


          INADEQUATE CONTROLS TO DETECT UNALLOWABLE AND 

            POTENTIALLY UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES........6 


          REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY 

           UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES....................................6 


          RECOMMENDATIONS.................................................................................................6                  


          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL 

           RESPONSE ...................................................................................................................7 


APPENDIX

          STATE AGENCY COMMENTS




                                                                   iii
                                               INTRODUCTION 


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Texas, the Texas Health and Human Services
Commission (the State agency) administers Medicaid.

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital, physician, and family planning services. States also may offer certain
optional services, such as outpatient prescription drugs, as long as the services are included in
their approved State plans.

Medicaid Outpatient Prescription Drug Program

All States offer outpatient prescription drugs to eligible Medicaid beneficiaries. Most States,
including Texas, administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program.1 The program generally pays for covered outpatient drugs if the
drug manufacturers have rebate agreements with CMS and pay rebates to the States. The rebate
agreements require manufacturers to provide a list of all covered outpatient drugs to CMS
quarterly. CMS includes these drugs on a quarterly Medicaid drug tape, makes adjustments for
any errors, and sends the tape to the States. The tape indicates a drug’s termination date,2 if
applicable, specifies whether the drug is less than effective,3 and includes information that the
States use to claim rebates from drug manufacturers. CMS guidance instructs the States to use
the tape to verify coverage of the drugs for which they claim reimbursement and to calculate the
rebates that the manufacturers owe.




1
 The Omnibus Budget Reconciliation Act of 1990 established the Medicaid drug rebate program effective January 1,
1991. The program is set forth in section 1927 of the Act. Arizona is the only State that does not participate in the
program.
2
 The termination date, which the manufacturer submits to CMS, reflects the shelf-life expiration date of the last
batch sold for a particular drug code. However, if the drug is pulled from the market for health or safety reasons, the
termination date is the date that the drug is removed from the market.
3
 The Food and Drug Administration determines whether drugs are less than effective. Such drugs lack substantial
evidence of effectiveness for all conditions of use prescribed, recommended, or suggested in their labeling.



                                                          1

Reimbursement of Medicaid Expenditures

In Texas, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program” (CMS-64). CMS reimburses
the State agency based on the Federal medical assistance percentage (reimbursement rate) for the
majority of claimed Medicaid expenditures, including outpatient drug expenditures.

For Federal fiscal years (FY) 2004 and 2005, Texas’s Federal reimbursement rate for Medicaid
expenditures varied from 60.22 percent to 63.17 percent.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures complied with Federal requirements.

Scope

The audit scope included $4.6 billion ($2.9 billion Federal share) in Medicaid outpatient drug
expenditures that the State agency claimed for FYs 2004 and 2005. We limited our testing of
these expenditures to determining compliance with specific Federal requirements related to
whether the drugs were (a) terminated, (b) less than effective, (c) supported with adequate
documentation, and (d) included on the CMS quarterly drug tapes.

We limited our internal control review to the State agency’s procedures for determining whether
the outpatient drugs were eligible for Medicaid coverage and were accurately claimed for
Federal reimbursement. We did not review the accuracy or completeness of the quarterly
Medicaid drug tapes.

We conducted fieldwork at the State agency’s offices in Austin, Texas.

Methodology

To accomplish our objective, we reviewed applicable Federal laws, regulations, and program
guidance and the State plan. We interviewed State agency officials responsible for identifying
and monitoring drug expenditures and rebate amounts. We also interviewed staff responsible for
reporting drug expenditures to CMS.

We used the quarterly drug tapes for the period October 1, 2001, through September 30, 2005.
We reconciled the amounts that the State agency reported on its CMS-64s to a detailed list of the
State agency’s outpatient drug expenditures. We also used the detailed list of drug expenditures
to determine whether the expenditures complied with Federal requirements. Specifically, we
determined whether the drugs for which the State agency claimed reimbursement were dispensed
after the termination dates listed on the quarterly drug tapes or were listed as less than effective
on the tape. In addition, we determined whether CMS had included the termination dates on the



                                                 2

quarterly drug tapes in a timely manner—that is, before terminated drugs could be dispensed. To
account for reasonable delays in processing data for terminated drugs, we used the first day of
the quarter after the State received the tape as the termination date if the termination dates were
provided to the States retroactively.

We also determined whether the drugs claimed for reimbursement were listed on the applicable
quarterly drug tape. If the drugs were not listed on the tape, we determined whether the State
agency had verified whether the drugs were eligible for Medicaid coverage. If the drugs were
compound drugs, we requested supporting documentation that indentified the individual drug
components.4

We calculated the Federal share of the expenditures using the lowest percentage (60.22 percent
to 63.17 percent) applicable for each quarter. We did not reduce the questioned drug
expenditures by the rebate amounts that the State received.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for FYs
2004 and 2005 did not fully comply with Federal requirements. Of the $4.6 billion ($2.9 billion
Federal share) claimed, $324,908 (Federal share) represented expenditures for drug products that
were not eligible for Medicaid coverage because they were (1) terminated drugs for which the
termination dates were listed on the CMS quarterly drug tape before the drugs were dispensed, (2)
drugs listed on the CMS quarterly drug tape as less than effective, or (3) inadequately supported with
documentation.

An additional $52,986 (Federal share) represented expenditures for drug products that were not
listed on the quarterly drug tapes. Because the State agency did not provide support to indicate
whether or not it had verified if the drugs missing from the tapes were eligible for Medicaid
coverage, these drug expenditures may not have been allowable for Medicaid reimbursement.
For the remainder of the $4.6 billion ($2.9 billion Federal share) claimed, we identified no other
errors with respect to whether the drugs were (a) terminated, (b) less than effective, (c) supported
with adequate documentation, or (d) included on the CMS quarterly drug tapes.

The State agency had inadequate controls to ensure that its outpatient drug expenditures
complied with Federal requirements.




4
 Pharmacists create compound drugs by combining two or more prescription or nonprescription drug products and
then repackaging them into a new capsule or other dosage form.


                                                       3

CLAIMS FOR TERMINATED DRUGS

Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date
effectively establishes a shelf life for the product. The termination date equals the expiration
date of the last batch sold, except in cases when the product is pulled from the market. In those
cases, the termination date may be earlier than the expiration date.

According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 19, the States “MUST . . . ASSURE that claims submitted by pharmacists are NOT for
drugs dispensed AFTER the termination date. These should be rejected as invalid since these
drugs cannot be dispensed after this date.” (Emphasis in the original.)

The CMS Medicaid drug rebate program release to State Medicaid directors, number 130, states
that “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are dealing with
the drug rebate program.” The quarterly drug tapes list the Medicaid-covered drugs’ termination
dates as reported by the drug manufacturers.

For FYs 2004 and 2005, the State agency claimed $392,866 ($242,726 Federal share) in
expenditures for drugs that, according to the State’s records, were dispensed after the termination
dates shown on the quarterly drug tapes. For example, the State agency paid for the drug
Indomethacin, which was dispensed on May 14, 2004. However, the drug’s termination date
was October 1, 2001, according to the tapes beginning with the quarter that ended December 31,
2001. The claimed expenditure was unallowable because it occurred after the drug’s termination
date, which was listed on the quarterly drug tape at the time the State agency made the
expenditures.

CLAIMS FOR LESS-THAN-EFFECTIVE DRUGS

Section 1903(i)(5) of the Act prohibits Federal Medicaid funding for drug products that are
ineligible for Medicare payment pursuant to section 1862(c) of the Act. Section 1862(c)
prohibits Federal funding for drug products determined to be less than effective for all conditions
prescribed, recommended, or suggested on the product’s label. According to the CMS Medicaid
drug rebate program release to State Medicaid directors, number 130: “. . . the CMS [quarterly
drug tape] is the one to use for ALL data when you are dealing with the drug rebate program.”
The quarterly drug tapes identify drugs that have been determined to be less than effective.

For FYs 2004 and 2005, the State agency claimed $128,092 ($77,973 Federal share) in
expenditures for drugs classified as less than effective on the quarterly drug tapes. For example,
the State paid for the drug Depo-Testadiol Vail, which was dispensed on October 19, 2004.
However, CMS reported the drug as less than effective on the tapes beginning with the quarter
that ended March 31, 2004. The claimed expenditure was unallowable because the drug was
dispensed after CMS reported it as less than effective.




                                                 4

CLAIMS FOR INADEQUATELY SUPPORTED DRUG EXPENDITURES

Section 1927 of the Act generally defines which covered outpatient drugs are allowable for
Federal reimbursement under the Medicaid program. To receive reimbursement for covered
drugs, States must maintain documentation identifying the specific drugs used. According to the
CMS “State Medicaid Manual,” section 2497.1: “Expenditures are allowable only to the extent
that, when a claim is filed, you have adequate supporting documentation in readily reviewable
form to assure that all applicable Federal requirements have been met.”

For FYs 2004 and 2005, the State agency claimed $6,680 ($4,209 Federal share) in drug
expenditures on its quarterly CMS-64s for which it did not have any supporting documentation
to indicate that the drugs met Federal requirements. The drugs were compound drugs made up
of two or more prescription or nonprescription drug products. The State agency created its own
drug codes for the compound drugs, but it could not identify the individual drugs that were
included. As a result, the State agency did not have conclusive evidence that these payments
were allowable Medicaid expenditures. These claims were therefore unallowable.

CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES

Section 1927(a)(1) of the Act generally conditions Medicaid reimbursement for covered
outpatient drugs on a requirement that manufacturers of those products enter into rebate
agreements with CMS under which they pay rebates to the States.5 The rebate agreements
require manufacturers to provide a list of all covered outpatient drugs to CMS quarterly. CMS
includes these drugs on the quarterly drug tapes and makes adjustments for any errors.
According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 130: “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are
dealing with the drug rebate program . . . . If [a drug code] that is not on the last CMS [quarterly
drug tape] you received is billed to you by a pharmacy . . . check with CMS to assure that the
[drug code] is valid . . . .” Furthermore, the CMS Medicaid drug rebate program release to State
Medicaid directors, number 44, provides that: “States must check the [quarterly drug tape] to
ensure the continued presence of a drug product . . . .”

The CMS “Medicaid Drug Rebate Operational Training Guide,” page S-S5, states: “If you have
paid for [a drug code] that is NOT on [the quarterly drug tape] you should have checked to make
sure it was correct. If you paid a pharmacy for utilization on an invalid [drug code], you may
have to . . . recoup your funds.”

For FYs 2004 and 2005, the State agency claimed $86,697 ($52,986 Federal share) in
expenditures for drug products that were not listed on the quarterly drug tapes. The State agency
did not provide support to indicate whether or not it verified if the drugs missing from the tapes
were eligible for Medicaid coverage; therefore, these drug expenditures may not have been
allowable for Medicaid reimbursement. As a result, the State agency did not have conclusive
evidence that these payments were allowable Medicaid expenditures.

5
 Pursuant to section 1927(a)(3) of the Act, a State may exempt certain drugs from the requirement to be covered by
a drug rebate agreement if the State has determined that availability of the drug is essential to the health of Medicaid
beneficiaries.


                                                           5

INADEQUATE CONTROLS TO DETECT UNALLOWABLE AND
POTENTIALLY UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency did not have adequate controls to ensure that all Medicaid drug expenditures
complied with Federal requirements or to detect unallowable and potentially unallowable claims
for reimbursement. The State agency did not check the quarterly drug tapes to ensure that the
drugs were eligible for Medicaid coverage.

REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY
UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency claimed Federal reimbursement for certain drugs that were not eligible for
Medicaid coverage because they were terminated, less than effective, or inadequately supported.
As a result, for FYs 2004 and 2005, the State agency claimed unallowable expenditures totaling
$527,638 ($324,908 Federal share) for these drugs. The State agency also claimed Federal
reimbursement for drug products that were not listed on the quarterly drug tapes. For these
drugs, we set aside potentially unallowable expenditures totaling $86,697 ($52,986 Federal
share) for CMS adjudication because the State agency did not determine whether the drugs were
covered by Medicaid.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund $324,908 to the Federal Government for drug expenditures that were not eligible
      for Medicaid coverage;

   •	 work with CMS to resolve $52,986 in payments for drugs that were not listed on the
      quarterly drug tapes and that may not have been eligible for Medicaid coverage; and

   •	 strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
      with Federal requirements, specifically:

           o	 	 claim expenditures only for drugs that are dispensed before the termination dates
                listed on the quarterly drug tapes,

           o	 	 do not claim expenditures for drugs that are listed as less than effective on the
                quarterly drug tapes,

           o	 	 maintain documentation that supports the expenditures reported on the CMS-64,
                and

           o	 	 verify whether drugs not listed on the quarterly drug tapes are covered under the
                Medicaid program and notify CMS when drugs are missing from the tapes.




                                                   6

STATE AGENCY COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency addressed our first two
recommendations by agreeing to work with CMS to ensure that Federal reimbursement is
appropriate and to refund the Federal share of any drug expenditures that were not eligible for
Medicaid coverage. Regarding the third recommendation, the State agency said that it has
management controls in place that provide strong assurance that drugs are eligible for Medicaid
reimbursement. In addition, the State agency said that improvements in the CMS notification
process for drug coverage, effectiveness, and termination information will further increase the
likelihood that the State agency will request Federal reimbursement only for approved drugs.

The State agency’s comments are included in their entirety as the Appendix.

We continue to recommend that the State agency strengthen its internal controls. The State
agency claimed $324,908 for drugs that were not eligible for Medicaid coverage and $52,986 for
drugs that may not have been eligible for Medicaid coverage because the drugs were not listed
on the CMS quarterly drug tapes. As discussed in our methodology, we determined whether the
drugs for which the State agency claimed reimbursement were dispensed after the termination
dates listed on the quarterly drug tapes or were listed as less than effective on the tape. In
addition, we determined whether CMS had included the termination dates on the quarterly drug
tapes in a timely manner—that is, before terminated drugs could be dispensed. To account for
reasonable delays in processing data for terminated drugs, we used the first day of the quarter
after the State received the tape as the termination date if the termination dates were provided to
the States retroactively.




                                                 7

APPENDIX
 

                                                                                                               APPENDIX
                                                                                                                Page 1 of 3 





                 TEXAS HEALTH AND HUMAN SERVICES COMMISSION



                                                                                                 ALBERT HA WK INS
                                                                                               EXECUTIVE CO~·lMISSJONER

                                                May 5, 2009



Mr. Gordon L. Sato
Regional Inspector General for Audit Services
Office of Inspector General, Office of Audit Services
1100 Commerce, Room 632
Dallas, Texas 75242

Reference Report Number A-06-07-00092

Dear Mr. Sato:

The Texas Health and Human Services Commission (HHSC) received a draft audit report
entitled "Review of Medicaid Outpatient Drug Expenditures in Texas for the Period October I,
2003, Through September 30, 2005" from the Department of Health and Human Services Office
of Inspector General. The cover letter, dated April 8, 2009, requested that HHSC provide written
comments, including the status of actions taken or planned in response to the report
recommendations.

The report identified three recommendations for HHSC to consider regarding outpatient drug
expenditw·es. These recommendations address: (I) refunding drug expenditures that were not
eligible for Medicaid coverage; (2) working with CMS to resolve payments for drugs that were
not listed on the quarterly drug tapes; and (3) strengthening internal controls to ensure that
claimed Medicaid drug expenditures comply with federal requirements. This management
response includes comments related to these recommendations and details related to actions
HHSC has completed or planned.

Summan' Response

CMS guidance instructs states to utilize the infomlalion contained in quarterly Medicaid dlUg
rebate tapes to verify whether drugs are eligible for federal reimbursement. HI-ISC has processes
in place to verify that a drug is listed on the quarterly Medicaid drug rebate tapes before it seeks
federal reimbw·sement. The effectiveness of these processes is supported by t.he fact t.hat over




          P. O. Box 13247   •   Austin, Texas 787 t I   •   4900 North Lamar, Austin, Texas   78751
                                                                                                                 APPENDIX
                                                                                                                  Page 2 of 3 





Gordon L. Sato
May 5, 2009
Page 2


99.99 percent' of drug claim amounts for the period covered by the audit were found to be
eligible for federal reimbursement.

HHSC is dependent on CMS for noti fication of drug coverage, effectiveness, and termination
information. CMS sends HHSC qual1erly Medicaid drug rebate tapes that include drug
termination information CMS receives from drug manufactures. Manufacturers are not always
timely in reporting this infol1nation to CMS; consequently, the information HHSC receives from
CMS in these tapes, and which HHSC uses as the basis for removing terminated drugs from its
formulary, is not always CUITent.

For example, the audit repol1 includes exceptions for drugs dispensed in calendar year 2005.
CMS did not report some of these drugs as being ineligible for federal reimbursement until
February 2007, and did not report others as being ineligible until November 2008. As a result,
HHSC was not infol1ned by CMS that these drugs were ineligible for federal reimbursement
until over a year after the claims were reimbursed. The receipt of more current drug coverage,
effectiveness, and termination information from CMS would increase the likelihood that HHSC
would request federal reimbw-sement only for drugs approved by CMS.

Detailed responses to the OIG recommendations follow.

DRHS/OIC Recommendation: We recommend that the State agency refund $324,908 to the
Federal Governmentfor drug expenditures that were not eligible for Medicaid coverage.

HHSC Management Response

Actions Planned: Using the most up-to-date product coverage, effectiveness, and tennination
infonnation, HHSC will work with CMS to ensure federal reimbursement is appropriate and will
refund the federal share for any drug expenditures that were not eligible for Medicaid coverage.

Estimated Completion Date: No later than 60 days after agreement is reached with CMS
regarding any ineligible expenditures.

Title of Responsible Person: Deputy Director, Medicaid-CHIP Vendor Drug Program

DHHS/OIC Recommendation: We recommend that the State agency work with eMS fa
resolve $52,986 in payments for drugs that wert: not listed on the quarterly drug tapes and that
may not have been eligible/or lvfedicaid coverage.




I The amount que_tioned ($324.90 ) is approximately one hundredth of one percent of the amount associated with
claims the auditors reviewed (.2.900,000,000).
                                                                                                  APPENDIX
                                                                                                   Page 3 of 3 





Gordon L. Sato
May 5, 2009
Page 3


HHSC Management Response

Actions Planned: Using the most up-to-date product coverage, effectiveness, and termination
information, HHSC will work with CMS to ensure federal reimbursement is appropriate and will
reftmd the federal share for any drug expenditures that were not eligible for Medicaid coverage.

Estimated Completion Date: No later than 60 days after agreement is reached with CMS
regarding any ineligible expenditures.

Title of Responsible Person: Deputy Director, Medicaid-CHIP Vendor Drug Program

DHHS/OIG Recommendation: We recommend that the State agency strengthen internal
controls to ensure that claimed !\1edicaid drug expenditures comply with federal requirements,
specifically:
    claim expenditures only for drugs that are dispensed before the temlination dates listed on the
    quarterly drug tapes.
    do not claim expenditures for drugs that are listed as less than effective on the quarterly drug
    tapes,
    maintain documentation that supports the expenditures reported on the CMS-64, and
    verify whether drugs not listed on the quarterly drug tapes are covered under the Medicaid
   program and notify CMS when drugs are missing from the tapes.

HHSC Management Response

HHSC has management controls in place that provide strong assurance that drugs are eligible for
federal Medicaid reimbursement. As previously mentioned, over 99.99 percent of drug costs
were found to be eligible for federal Medicaid reimbursement during the period covered by the
audit. Improvements in the CMS notification process for drug coverage, effectiveness, and
termination information will ftmher increase the likelihood that HHSC requests federal
reimbursement only for approved dl1Jgs.

If you have any questions or require additional information, please contact David M. Griffith,
CPA, CIA, CGFM, Internal Audit Director. Mr. Griffith may be reached by telephone at
(512) 424-6998 or bye-mail atDavid.Griffith@hhsc.state.tx.us.



Si~)J~
Albert Hawkins
